APPENDIX
Pages 7 through 21

7.

r*o

o

s 5
o

IN THE DISTRICT COURT OF LANCASTER COUNTY, NEBRASRfi ?
—jrn

CHARLES L. FILEDGROVE,
Petitioner,
vs.
SCOTT R. FRAKES, Director,
Nebraska Department of Correctional
Services;
MICHELE WILHELM, Warden,
Nebraska State Penitentiary,

)
)
)
)
)
)
)
)
)
)

Case No. Cl 20-926

ORDER

o
O-1 3
O—< ^
cs vp
—<
-c*
o>

-'O

m
33
o
o
<r
a:
—<
-<

>
)

Respondents.

This matter comes before the court on this

day of April, 2020, on a petition for writ

of habeas corpus filed by petitioner, Charles Fieldgrove. The court has considered the
petitioner’s petition and finds that it fails to set forth grounds for issuance of a writ of habeas
corpus for the reasons set forth herein.
Habeas Corpus in Nebraska
“A writ of habeas corpus in this state is quite limited in comparison to those of federal
courts, which allow a writ of habeas corpus to a prisoner when he or she is in custody in
violation of the federal Constitution, law, or treaties of the United States.” Peterson v. Houston,
284 Neb. 861, 867, 824 N.W.2d 26, 32 (2012). “Under Nebraska law, an action for habeas
corpus is a collateral attack on a judgment of conviction.” Id. at 867, 824 N.W.2d at 32-33.
“Only a void judgment may be collaterally attacked.” Id. at 867, 824 N.W.2d at 33. “Where

(APPENDIX Al“" A3)

'V
001997248D02

the court has jurisdiction of the parties and the subject matter, its judgment is not subject to
collateral attack.” Id. “Thus, a writ of habeas corpus will not lie to discharge a person from a
sentence of penal servitude where the court imposing the sentence had jurisdiction of the
offense and the person of the defendant, and the sentence was within the power of the court to
impose. ” Id. “A writ of habeas corpus is not a writ for correction of errors, and its use will not
be permitted for that purpose.” Id. “‘[T]he regularity of the proceedings leading up to the
sentence in a criminal case cannot be inquired into on an application for writ of habeas corpus,
for that matter is available only in a direct proceeding.’” Id. (internal quotation omitted).
Discussing habeas corpus, the Nebraska Supreme Court has described it as a “special
civil proceeding providing a summary remedy to persons illegally detained... [which] challenges
and tests the legality of a person’s detention, imprisonment, or custodial deprivation of liberty.”
Gonzalez v. Gage, 290 Neb. 671, 675 (2015) (citations omitted). “Habeas corpus requires the
showing of legal cause, that is, that a person is detained illegally and is entitled to the benefits of
the writ.” Id., at 675 (citation omitted).
In Rehbein v. Clarke, 257 Neb. 406, 409 (1999) (citation omitted), the Nebraska Supreme
Court stated that, “[a] writ of habeas corpus in this state is quite limited in comparison to those of
federal courts, which allow a writ of habeas corpus to a prisoner when he is in custody in
violation of the federal Constitution, law, or treaties of the United States.” In Nebraska, habeas
corpus is a collateral attack. In discussing a collateral attack, the Rehbein court went on to say:
Only a void judgment may be collaterally attacked. Where the court has jurisdiction of
the parties and the subject matter, its judgment is not subject to collateral attack. A writ
of habeas corpus will not lie to discharge a person from a sentence of penal servitude
where the court imposing the sentence had jurisdiction of the offense, had jurisdiction of

-2-

the person of the defendant, and the sentence was within the power of the court to
impose.
Id. at 410.
Petitioner’s Allegations
Petitioner asserts he is being detained pursuant to convictions in two cases originating in
the District Court of Sherman County, Nebraska and that his detention is illegal.
He alleges the illegality of his detention is because Neb. Rev. Stat. § 28-319(1) and 28320.02(1) violate the Nebraska Constitution in that said statutes violate the single-subject rule,
are overly broad, and/or are overly vague. He further alleges that since these statutes are overly
broad, overly vague, and violate the single-subject rule, his convictions are void. (The court
assumes for purposes of this analysis that petitioner was convicted under these statutes.)
The allegations petitioner makes are collateral attacks on his convictions, exactly what
Nebraska habeas corpuS^inofi^ti&n does not permit.
There are no allegations that the Sherman County District Court lacked personal or
subject matter jurisdiction. Therefore, petitioner is not entitled to issuance of the writ as
requested.
For the above and foregoing reasons, the court finds that the petition for writ of habeas
corpus should be, and hereby is, overruled. This case stands dismissed.
•+ UN­

DATED this

day of April, 2020.
BY THE COURT:

Jodi L. Nelson
mstnct-Jttdge
-3-

CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, P.O. Box 98910
Lincoln,, Nebraska 68309-8910
(402) 471-3731
FAX (402) 471-3480

September 25, 2020
Charles L Fieldgrove #70650
Penitentiary
PO Box 22500
Lincoln, NE 68542-2500
IN CASE OF: A-20-000350, Fieldgrove v.Frakes
TRIAL COURT/ID: Lancaster County District Court CI20-926
The following filing: Mot. of Appellee for Summary Affirmance
Filed on 07/31/20
Filed by appellee Scott R Frak.es Director
Has been reviewed by the court and the following order entered:
ADoellee's motion for summary affirmance sustained. See, Neb. Ct. R.
App. P. § 2-107(B)(2);' Sanders v. Frakes, 295 Neb. 374, 888 N.W.2d 514
(2016) (final conviction and sentence entered upon alleged facially
unconstitutional statute is not absolutely void, but is voidable only,
and may not be attacked in habeas corpus proceeding).

Respectfully,
Clerk of the Supreme Court
and Court of Appeals

(APPENDIX Bl)

www.supremecourt.ne.gov

CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, RO. Box 98910
Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX (402) 471-3480
November 17, 2020
Charles L Fieldgrove #70650
Penitentiary
PO Box 22500
Lincoln, NE 68542-2500
IN CASE OF: A-20-000350, Fieldgrove v. Frakes
TRIAL COURT/ID: Lancaster County District Court CI20-926
The following filing: Motion Appellant for Rehearing
Filed on 10/06/20
Filed by appellant Charles L Fieldgrove #70650
Has been reviewed by the court and the following order entered:
Appellant's motion for rehearing under Neb. Ct. R. App. P. § 2-113 is
overruled. See Sanders v. Frakes, 295 Neb. 374, 888 N.W.2d 514 (2016)
(habeas corpus is not proper remedy to challenge detention pursuant to
final conviction and sentence on basis that statute underlying
conviction is unconstitutional).

Respectfully,
Clerk of the Supreme Court
and Court of Appeals

(APPENDIX Cl)

www.supremecourt.ne.gov

CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, RO. Box 98910
Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX (402) 471-3480
November 17, 2020
Charles L Fieldgrove #706-50
Penitentiary
PO Box 22500
Lincoln, NE 68542-2500
IN CASE OF: A-20-000350, Fieldgrove v. Frak.es
TRIAL COURT/ID: Lancaster County District Court CI20-926
The following filing: Motion appellant for Summary Reversal
Filed on 10/06/20
Filed by appellant Charles L Fieldgrove #70650
Has been reviewed by the court and the following order entered:
Appellant's motion for summary reversal overruled as moot.

Respectfully,
Clerk of the Supreme Court
and Court of Appeals

(APPENDIX Dl)

www.supremecourt.ne.gov

CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, P.O. Box 98910
Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX (402) 471-3480
February 18, 2021
Charles L Fieldgrove #70650
Penitentiary
PO Box 22500
Lincoln, NE 68542-2500
IN CASE OF: A-20-000350, Fieldgrove v. Frakes
TRIAL COURT/ID: Lancaster County District Court CI20-926
The following filing: Petition of Appellant for Further Review
Filed on 12/16/20
Filed by appellant Charles L Fieldgrove #70650
Has been reviewed by the court and the following order entered:
Petition of appellant for further review denied.

Respectfully,
Clerk of the Supreme Court
and Court of Appeals

(APPENDIX El)

www.supremecourt.ne.gov

Additional material
from this filing is
available in the
Clerk's Office.

